/.

NO.

IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020

DENNIS AYALA,
PETITIONER
V.
UNITED STATES OF AMERICA,
RESPONDENT

PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

Jane Elizabeth Lee
44 Exchange Street
Suite 201
Portland, Maine 04101
(207) 871-0310
Attorney for Petitioner

April 23, 2021

QUESTIONS PRESENTED FOR REVIEW

Whether the Court of Appeals erred when it held, contrary to this Court’s
holding in Molina-Martinez, that any error in the District Court’s choice
between two guideline ranges was harmless error because of a single
statement by the court that the sentence was “appropriate” under either
guideline. Molina-Martinez makes it clear that where the parties anchor
their sentencing arguments around the application of a certain guideline,
and where that guideline is the focal point of the sentencing hearing, the
court’s use of an incorrect guideline prejudices a defendant, even where the
ultimate sentence falls within two guideline ranges.
Whether the district court substantively and procedurally erred when
it calculated the quantity of drugs for which Petitioner was
responsible. The district court is required to find drug quantity by a
preponderance of the evidence. In the present case, the evidence was
insufficient to support a finding of drug quantity by a preponderance
of the evidence. The court had insufficient evidence to find that both
bank withdrawals, preceding the April 26, 2018 drug transaction,
could be converted to drugs.

TABLE OF CONTENTS
QUESTIONS PRESENTED

3

TABLE OF AUTHORITIES

4

OPINION BELOW.

6

JURISDICTION

7

STATEMENT OF THE FACTS

8

REASON FOR GRANTING THE WRIT

21

CONCLUSION

40

APPENDIX
41
(Judgment of the First Circuit Court of Appeals, No. 19-1936, March 19, 2021).

2

TABLE OF AUTHORITIES
PAGES

CASES
United States v. Alcalde. 818 F.3d 791 (8th Cir.2016)

37

United States v. Alfas, 785 F.3d 775 (1st Cir. 2015)

22

United States v. Benedetti. 443 F.3d 111 (1st Cir. 2005)

22

United State v. Bruckman. 874 F.2d 57 (1st Cir. 1989)

34

United States v. Caribe Garcia. 125 F.Supp.2d 19 (D.P.R.2000)

31

United States v. Cirilo. 803 F.3d 73 (1st Cir. 2015)

34

United States v. Cox. 851 F.3d 113 (1st Cir.2017)

33

United States v. Gerante. 891 F.2d 364 (1st Cir. 1989)

39

United States v. Gonzalez. 736 F.3d 40 (1st Cir. 20123)

34

United States v. Jenner. 473 F.3d 894 (8th Cir. 2007)

29,3L32

United States v. Lindsey. 827 F.3d 723 (8th Cir. 2016)

29,31

United States v. Marks. 365 F.3d 101 (1st Cir. 2004)

29,36,38

United States v. Rivera Calderon. 578 F.3d 78 (1st Cir. 2009)

39

United States v. Ross. 502 F.3d 521 (6th Cir. 2007)

31

United States v. Saxena. 229 F.3d 1 (1st Cir. 2000)

31

United States v. Sepulveda. 15 F.3d 1161 (1st Cir. 1993)
United States v. Sklar. 920 F.2d 107 (1st Cir. 1990)
United States v. Valencia-Lucena. 988 F.2d 228 (1st Cir. 1993)

4

passim
28,36,38
32

United States v. Wilson. 920 F.2d 1290 (6st Cir. 1990)

35

Treatise and Statutes and other sources
passim

Fed.R.Crim.P. 32 (i)(2)(4)

5

NO.

IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
DENNIS AYALA,
PETITIONER
V.
UNITED STATES OF AMERICA,
RESPONDENT

PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

The Petitioner, Dennis Ayala, respectfully prays that a writ of certiorari
issue to review the judgment of the United States Court of Appeals for the First
Circuit entered on March 19, 2021.
OPINION BELOW
On March 19, 2021, the Court of Appeals entered its Opinion affirming the
Petitioner’s conviction and sentence. Judgment is attached at Appendix 1.

6

JURISDICTION
On March 19, 2021, the United States Court of Appeals for the First Circuit
entered its Opinion affirming Petitioner’s conviction and sentence.
Jurisdiction of this Court is invoked under 28 U.S.C. § 1254 (1).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
United States Constitutional Amendment V:
No person shall. ..be deprived of life, liberty, or property without due
process of law...

7

STATEMENT OF THE FACTS
Introduction
On April 18, 2018, state law enforcement searched Petitioner’s
residence pursuant to a warrant. Petitioner was arrested and subsequently
released on bail on April 20, 2018. (Revised Presentence Report, 6/4/19 at
4, para 1 [hereinafter, “RPSR at

”]). Petitioner was again arrested on

state charges on May 23, 2018. (RPSR at 4, para. 1). The arrest followed the
traffic stop and car search of a related defendant. The search led to the
discovery of 196.4 grams of fentanyl hidden in a WD-40 cannister. (RPSR,
6/4/19 at para. 8, p. 5-6). On June 7, 2018, Petitioner was arrested on a
federal warrant based on the state charges. (RPSR at 4, para. 1).
On August 23, 2018, the federal grand jury returned a two-count,
Superseding indictment charging Petitioner with Conspiracy to Distribute
and Possession with Intent to Distribute, 40 grams of Fentanyl and
Possession with Intent to Distribute and Aiding and Abetting Possession
with Intent to Distribute, 40 grams of Fentanyl. (D.E. at 6, No. 61).
Offense Conduct
On April 18, 2018, Petitioner’s residence was searched by state law
enforcement who had been investigating Petitioner for drug trafficking
activities. The search of Petitioner’s residence revealed a minimal amount

8

of cocaine base, drug paraphernalia and a single “ticket of heroine”. The
search also revealed $5, 720 in a safe. (RPSR at 5, para. 6). Petitioner was
arrested on state charges and subsequently released on bail.
On May 22, 2018, State law enforcement together with the U.S. Drug
Enforcement Administration (DEA) received information from a
confidential source that a person connected to Petitioner would be
returning from Massachusetts to Maine with a quantity of fentanyl. (RPSR
at 5, para. 7). Maine State police stopped the car and discovered 196.4
grams of heroin hidden in a WD-40 container. The driver of the car, Devin
Dulong, agreed to cooperate with the agents. Dulong told officers that she
picked up the fentanyl in Massachusetts from Petitioner’s source of supply
and was delivering the heroin to Petitioner. (RPSR at 6, para. 7-8).
Petitioner was arrested at his residence the same day. A search of the
residence revealed drug paraphernalia with traces of fentanyl, but no
measurable quantity of drugs. (RPSR at 6, para. 8).
A search of Petitioner’s cellular phone following his arrest revealed
texts to Petitioner’s source of supply, “Papa” and “Mama”, in Lawrence
Massachusetts. Texts to and from “Papa” and information supplied by the
confidential source reveal that Petitioner’s stepdaughter, Andrea Hoffman,
traveled to Lawrence Massachusetts on April 26, 2018 to pick up drugs for

9

Petitioner. A search of Petitioner’s bank records shows that on April 24,
2018, a withdrawal of $5,000 was made from Petitioner’s account. On April
26, 2018, $3, 300 was withdrawn, and on May 22, 2018 $4,500 was
withdrawn. (RPSR at 5, para. 6).
Plea Agreement and Change of Plea Hearing.
On January 29, 2019, Petitioner signed an Agreement to Plead Guilty. (D.
E. at 7, No. 149). In the agreement the government agreed to dismiss count
two of the indictment and recommend a base offense level of 28, based on a
drug quantity of 700 to 1000 kilograms of converted drug weight. The
government also recommended a three-level reduction in the offense level
under USSG 3E. 1.1 for acceptance of responsibility. (Plea Agreement,
2/7/19 at p. 2).
On February 25, 2019, a Change of Plea hearing was held. Petitioner
pled guilty to Count One of the Superseding Indictment. The court accepted
Petitioner’s plea. (D.E. at 8, No. 154).
Presentence Report
On April 2, 2019, probation prepared the original presentence report.
Probation computed a base offense level of 30, based on a drug quantity of
at least 1000 kilograms but less than 3,000 kilograms of converted drug
weight. Although only 196.4 grams of fentanyl was discovered in the three

10

searches, two of Petitioner’s residence and one of the car stop of co­
defendant Dulong, Probation arrived at this greater quantity by converting
the cash found in Petitioner’s safe and three withdrawals from Petitioner’s
account into drug weight. (RPSR at 7, para. 11). Probation converted the
$5,720 in the safe to 248.70 kilograms of drug weight, the $5,000
withdrawn from the bank on April 24, 2018 to 217.39 kilograms, and the
money withdrawn on April 26, 2018 to 143.48 kilograms, for a total of
1,101.82 kilograms of converted drug weight.
Both Petitioner and the government objected to probation’s
calculation of drug weight. The government objected to a base offense level
higher than the agreed upon level 28. (Addendum to RPSR, at 1, Govt’s Obj.
No. 1). Petitioner objected to the converted drug weights for the money in
the safe and the bank withdrawals, arguing “There is little, if any, evidence
connecting these monies to any drug distribution activities.” (Addendum to
RPSR at 1, Def. Obj. N0.1). Probation responded the conversion was
“reasonable” based on Petitioner’s disability income of $1, 200 a month and
the fact that the withdrawals were made the day before and two days before
the April 26th drug re-supply trip. (RPSR, Addendum at 1, Def. Obj. no. 1).

11

Presentence Conference.
On June 25, 2019, the court held a presentence conference. At the
conference, the government noted its objection to probation’s drug
quantity. The government stood by its agreement to recommend a base
offense level of 28. (Presentence Conference, 6/25/19 at 2-3, [hereinafter
“Presentence Conf. at

”]. Petitioner also reiterated his objection to the

drug quantity contending the base offense level should be 28 and not 30.
Petitioner’s counsel stated that there was no adequate tie between the
monies involved and drug activities. Counsel argued particularly that the
money discovered in the safe could not be connected to drug activity.
(Presentence Conf. at 3).
Sentencing Memorandum
Prior to sentencing, Petitioner submitted a sentencing memorandum
in which he argued, among other arguments, that the cash found in
Petitioner’s safe and the two withdrawals from Petitioner’s bank account
should not be converted to drugs. (Defendant’s Sentencing Memorandum,
7/8/19, at 1-3, [hereinafter [Memorandum at__”]). Petitioner argued that
there was no evidence connecting the sums to drug trafficking activities.
Petitioner argued that the money in the safe did not coincide with any
known drug activity and that there was “no evidence that the cash in the

12

safe was anything other than Ayala’s savings”. (Memorandum at l, 2,).
Petitioner also argued that there was no nexus between the withdrawals
from Petitioner’s accounts and drug quantity. Petitioner stated that the
$5,000 withdrawal on April 24, 2019, was to repay his stepdaughter,
Hoffman, for the cash bail she posted on his behalf on that day. Petitioner
attached a receipt showing that Andrea Hoffman posted $5,000 cash bail
for Petitioner in his state case on April 24, 2019. (Memorandum, Ex. A at
2). Petitioner argued if either the money in the safe ($5,720) or the $5,000
withdrawal on April 24, 2019, were not converted to drugs, Petitioner’s
drug quantity would be well within the drug quantity set forth in USSG §
2D1.1(a)(6), for a base offense level of 28 (700-1000 kg of heroin).
(Memorandum at 3).
Sentencing Hearing
The district court noted that both sides believed the base offense level
should be level 28 but noted that probation found the base offense level was
30 based on the conversion of cash in the safe and bank withdrawals to
drugs (Sentencing at 15). The court queried whether the government
wanted to say anything other than to recommend a base offense level of 28,
and the government declined. (Sentencing at 15). Petitioner’s counsel
argued consistent with his memorandum that there was no nexus between

13

the money and any drugs (Sentencing at 16). The court stated that the
$5,000 was withdrawn the day “his cohort went down to get drugs.”
(Sentencing at 16). Petitioner argued that the $5,000 was for bail in the
state case and noted that counsel had provided the court with the bail
receipt for $5,000. (Sentencing at 16).
The court nonetheless stated, “I don’t have any evidence of that other
than your assertion.” (Sentencing at 16). Defense counsel argued that if the
cash in the safe was not converted to drugs, that alone would bring the drug
quantity within the base offense level of 28. The court noted that Petitioner
lent or gave sums of money to relatives, that Petitioner had been on
disability since 1991 receiving a monthly benefit of $1,200 and that coupled
with clear evidence of drug dealing and the substantial sums of money
being transmitted, led the court to overrule Petitioner’s objection.
(Sentencing at 17). The government recommended a sentence within the
guideline range or “even at the lower end of the guideline range, would be
appropriate”. (Sentencing at 23).
Later in the sentencing hearing the court spontaneously returned to the
issue of drug quantity. (Sentencing at 32).
The Court: Do you want to address the issue of a fine?
Mr. McKee: Yes, I do - -

14

The Court: Let me - - let me just add, before you do that, that when
I’m - - I’m going to add to my finding in terms of the
money in the safe being drug money that it’s hard for me
to imagine a man who has accumulated the kind of assets
I see in this presentence report on disability. I think it’s all
drug money, and that is an additional component of my
earlier finding. You don’t have to address that; I’ve
already addressed that issue. But why don’t you address
the issue of the fine, why should he not be addressed a
fine with this type of assets? (Sentencing at 32).
During the argument concerning imposition of a fine, the court also
interjected, “And he has got two snowmobiles. It’s quite amazing - - how
someone on disability has been able to do that well. ...With no other assets.”
(Sentencing at 34).
Prior to Petitioner addressing the court, defense counsel informed the
court that Petitioner wish to consult with counsel. Petitioner told counsel
for the first time, that in 2013 Petitioner had inherited $200,000 from the
life insurance policy and a $50,000 payment of military benefits from a
daughter who had died.

Petitioner expressed to counsel that he was

concerned that the court seemed to think that Petitioner purchased his
house and vehicles with drug money, and he wanted the court to
understand “there was a legitimate source for these purchases”.
(Sentencing at 36). Counsel requested a continuation of sentencing to
obtain the relevant documents. The court noted that the issue of whether
the money in the safe was drug money had been on the table for some

15

period. (Sentencing at 39). The government sought clarification as to
whether Petitioner’s documentation would be “regarding the source of the
money from the safe, or from the house or from the bank account.” The
court replied, “I think all of - - all of the above from what I understand. Am
I correct, Mr. McKee?” “Yes, your Honor”. (Sentencing at 40). The court
granted the continuance over the government’s objections. (Sentencing at
40-41).
Continued Sentencing Hearing.
Prior to the Continued Sentencing Petitioner submitted a
supplemental sentencing memorandum. (Defendant’s Supplemental
Sentencing Memorandum, 9/13/19, D.E. at 9, No. 205, [hereinafter
“Supplemental Memorandum at _”]). Attached to the memorandum, was a
copy of Petitioner’s Bangor Saving’s Bank account records showing a
deposit on May 2, 2013 from MCTFS SPCL DFAS-CLEVELAND (Marine
Corps Total Force System Defense Finance Accounting Service) of $50,000
and on May 8, 2013 a deposit from PURDENTIAL OSGLI (Office of
Servicemen’s Group Life Insurance) of $200, 038.24 into Petitioner’s
checking account. (Supplemental Memorandum, Ex. A, at 1). The
documentation supported Petitioner’s statement that he had an additional
source of income other than his monthly disability payments, namely, the

16

$50,000 in military benefits and $200,000 military life insurance
payments he received upon his daughter’s death. (Declaration of Dennis
Ayala, 9/13/19 at 1, [hereinafter “Declaration at
Petitioner also submitted documentation that he did not purchase his
house with drug monies. In 2006, Petitioner’s significant other Cynthia
Ryman’s father, David Ryman, deeded a home to Ms. Ryman. On February
22, 2011 following a Probate Court order authorizing the transaction, the
home was transferred by Ms. Ryman to David Ryman, Trustee of the
Dennis Ayala Supplemental Care Trust. The home remains in the trust and
David Ryman remains the trustee. (Declaration at 1, Ex. B at 1-4).
Petitioner also declared that the bank withdrawals on April 24, and
26, 2018 were for repayment of his cash bail originally paid by his
stepdaughter, Andrea Hoffman and for payment of bills. Petitioner
submitted documents showing his cash bail was paid by Andre Hoffman on
April 20, 2018 and numerous receipts for bills due in April. (Declaration at
1, Ex. D, Defendant’s Sentencing Memorandum, Ex A at 1-2).
Continued Sentencing Hearing took place on September 16, 2019.
The court stated it had a couple of questions for counsel and asked counsel
where the money from the military benefit and the insurance was at

17

present. (Continued Sentencing, 9/16/19 at 3, [hereinafter Continued
Sentencing at

”]). The court stated:

The trouble is I don’t know the source of those things by looking at
those records because all I see is that there is money there, but it
doesn’t mean that there isn’t money still unused to buy all those
things. I just don’t see it. (Continued Sentencing at 4).
Counsel replied that the money has been spent over the years. (Continued
Sentencing at 5). The court queried whether counsel had any proof of the
purchase of “these various items”. Counsel noted that the house about
which the court had inquired at the original sentencing had not been
purchased by Petitioner but was held in a special needs trust and Petitioner
was not the trustee. Counsel represented that the motorcycle, the truck,
and snowmobiles had been purchased with the proceeds of the insurance.
(Continued Sentencing at 5).
The court then stated, “Having - - having reviewed the additional
documentation, my earlier questioning is not satisfied.” (Continued
Sentencing at 7).
The court found that Petitioner’s total offense level was 30, (a base
offense level of 30 based on quantity of drugs, rather than 28 as agreed to
by the parties, three level increase for role in the offense and three level
reduction for acceptance of responsibility), a Criminal History Category of
II, resulting in a guideline range of 108 to 135 months. (Continued

18

Sentencing at 9). The court sentenced Petitioner to a 108-month term of
imprisonment. The court stated, “In my view the 108 months is appropriate
under either set of circumstances, and that’s what I’m going to sentence
him to.” (Continued Sentencing at 9). The court recommended Petitioner
be enrolled in the 500-hour drug program and ordered a supervised release
term of four years and a mandatory assessment of $100 and a fine in the
amount of $2,000. (Continued Sentencing at 9,11). The government
dismissed Count 2 of the superseding indictment. (Continued Sentencing
at 12).

Court of Appeals Decision
The Court of Appeals bypassed review of all Petitioner’s sentencing
issues. The Court held that any error the District Court may have made
with respect to drug quantity in calculating the GSR in Ayala’s case was
harmless. United States v. Avala. 91 F.3d 323, 326 (1st Cir. 2021). The Court
stated that after examining the record as a whole, it was clear that
Petitioner’s sentence did not depend on whether the District Court found
Petitioner’s base offense level (BOL) to be 28 or 30 because the District
Court determined Petitioner’s sentence was “appropriate under either set of
circumstances” Id- at 326.

19

In examining the District Court’s determination of drug quantity “in
the context of the record as a whole”, the Court of Appeals did not address
the fact that the District Court held a two-day hearing, received
documentation, and heard extensive argument on the issue of drug quantity
and the appropriate resulting guideline sentencing range. Nor did the
Court of Appeals address the fact that the District Court never mentioned
the appropriateness of both guidelines at any time until after the imposition
of sentence. A sentence which was based on the greater drug quantity and
higher guideline range. (Continued Sentencing at 9).

20

REASON FOR GRANTING THE WRIT
The Court of Appeals erred when it held, contrary to this
Court’s holding in Molina-Martinez. that any error in the
District Court’s choice between two guideline ranges was
harmless error because of a single statement by the court
that the sentence was “appropriate” under either guideline.
Molina-Martinez makes it clear that where the parties
anchor their sentencing arguments around the application
of a certain guideline, and where that guideline is the focal
point of the sentencing hearing, the court’s use of an
incorrect guideline prejudices a defendant, even where the
ultimate sentence falls within two guideline ranges.
Argument
The district court incorrectly calculated Petitioner’s drug quantity and
the resulting guideline sentencing range. Incorrect calculation of a
guideline range constitutes a significant procedural error which requires
resentencing even where the ultimate sentence falls within two guideline
ranges. Molina-Martinez v. United States. 136 S.Ct. 1338 (2016), United
States v. Alfas. 785 F.3d 775, 779 (1st Cir. 2015).
Petitioner preserved his claim of error in the district court.
Therefore, it was the government’s “weighty” burden to prove beyond a
reasonable doubt that the sentencing error did not adversely affect
Defendant’s substantial rights. “This is a daunting standard” United States
v. Benedetti. 443 F.3d 111,119 (1st Cir. 2005).

21

In the present case the government did not meet that burden. The
district court was clearly invested in determining the quantity of drugs for
which Petitioner was responsible and the correspondingly correct guideline
sentencing range. The majority of both the Sentencing Hearing and the
Continued Sentencing focused on this issue. Despite both the government
and Petitioner agreeing that Petitioner’s BOL was 28, the District Court
found that Petitioner’s offense level was 30. (Continued Sentencing at 9).
The court sentenced Petitioner based on his findings that Petitioner’s
offense level was 30. (Continued Sentencing at 9).
It is true that the sentencing court following its imposition of
sentence stated, “In my view the 108 months is appropriate under either set
of circumstances.” (Continued Sentencing at 9). The Court of Appeals held
that when this statement was read in the context of the “record as a whole”,
it clearly demonstrated that the District Court’s sentence did not depend on
its choice of drug quantity. Ayala. 991 F.3d at 328. The Court of Appeals
errs in holding that this single phrase can insulate the district court’s
unequivocally significant factual findings from appellate review.
In the present case, the district court held an evidentiary hearing on
the issue, received documentation on the issue, adjourned the sentencing
hearing for further evidence on the issue, calculated a drug quantity, used

22

its calculation to set the base and total offense level, and then used the
resulting guideline sentencing range in sentencing Petitioner. (Continued
Sentencing at 9). Almost the entire sentencing record is taken up with the
determination of drug quantity. Yet despite this record evidence, the Court
of Appeals held that in context of the record as a whole, any error in
determining the guideline sentencing range was harmless. United States v.
Ayala. 991 F.3d at 326.
This Court has held that in determining whether the use of an
incorrect guideline has influenced a defendant’s sentence this Court should
look to “the facts and circumstances of the case before it”. Molino-Martinez
v. United States. 136 S.Ct. 1338,1346 (2016). Molina-Martinez stated that
when both parties anchored their sentencing arguments around the
application of a certain guideline, and its effect on defendant’s sentence,
and when the application of that guideline is the focal point of the
sentencing proceedings, then the court’s use of that guideline affects the
defendant’s sentence and use of an incorrect guideline prejudices the
defendant. Molino-Martinez. 136 S. Ct. at 1347 (2016) (an error in the
guideline calculation affects the sentence imposed when the parties anchor
their sentencing arguments in the guidelines, the guidelines serve as the

23

starting point for the sentencing and are the “focal point” of the
proceedings that followed.)
Here, Petitioner “anchored” his sentencing arguments in contesting
the offense level of 30 and the corresponding drug quantity. Both Petitioner
and the District Court focused in the first and second sentencing hearing on
the applicable guideline range and total offense level. It is indisputable that
the focal point of sentencing and the continued sentencing hearing was
drug quantity and the resulting guideline range. Thus, Petitioner’s sentence
was inextricably ‘tethered’ to the guidelines. Molina-Martinez, 136 S.Ct. at
1347. Like the Fifth Circuit in Molina-Martinez. the First Circuit erred when
it failed to “view as probative the parties anchoring their sentencing
arguments in the Guidelines” Molina-Martinez. 136 S. Ct. at 1345 (2016)
(internal quotations omitted). Petitioner’s sentence was clearly not, as the
Court of Appeals contends, independent of the District Court’s choice
between the two BOLs. United States v. Avala, 991 F.3d at 326.
Even under the plain error standard when a defendant is sentenced
under an incorrect guideline range “the error itself can, and most often will,
be sufficient to show a reasonable probability of a different outcome’ Id. at
1345, Here, as the government concedes, Petitioner preserved this claim of
error. Molina-Martinez. 136 S. Ct. at 1349 (Rule 52 treats defendants who

24

have preserved their claims much more favorably than those who fail to
register a timely objection). It was the government’s burden to prove that
guideline range did not affect Petitioner’s sentence. United States v. Piano.
507 U.S. 725, 741-42 (1993) (Kennedy, J., concurring) (when the defendant
has made a timely objection to an error the government bears the burden of
persuasion with respect to prejudice). This they should not be able to do by
reference to the district court’s single, self-serving, post-sentencing
statement. (Continued Sentencing at 9).
This Court has held that Courts of Appeals must engage in a “full
record assessment” to determine whether the government has met its “case
specific burden” of showing harmlessness. Molina-Martinez. 136 S.Ct at
1349-50. In the present case, a full record assessment shows that the
district court did indeed base its final sentence on its incorrect drug
quantity determination and the resulting incorrect guideline. (Continued
Sentencing at 9).
It is disingenuous of both the Court of Appeals, the District Court,
and the government to claim that the dispute about drug quantity and the
guideline range did not affect the sentence imposed. (Continued
Sentencing at 9, government’s brief at 14, United States v. Avala. 991 F.3d
at 327). If drug quantity did not matter, the court would not have engaged

25

in the extensive arguments, hearings and evidence collecting over the issue
of drug quantity and the resulting base offense level. The District Court
would have stated at the outset that the drug quantity determination would
not affect Petitioner’s ultimate sentence. Fed.R.Crim.P. 32(i)(3)(B) (for any
disputed portion of the presentence report the court must rule on the
dispute or determine that a ruling is unnecessary because the matter will
not affect sentencing).
Thus, the government cannot prove beyond a reasonable doubt that
the court’s erroneous guideline calculation based on drug quantity did not
substantially affect Petitioner’s sentence. Sepulveda. 15 F.3d at 1198 (under
the guidelines drug quantity has a dramatic leveraging effect-relatively
small quantitative differences produce markedly different periods of
imprisonment).

26

II. The district court committed clear procedural and
substantive error when it calculated Petitioner’s drug
quantity.
Standard of Review
The government must prove, and the district court must find, drug
quantities by a preponderance of the evidence. United States v. Sepulveda.
15 F.3d 1161,1198 (1st Cir. 1993). Petitioner preserved his objections to
drug quantity in his objection to the PSR, at the Presentence Conference, in
his Sentencing Memorandum, his Supplemental Sentencing Memorandum,
and at the Sentencing Hearing and Continued Sentencing Hearing.
(Addendum to the PSR, Obj. No. 1 at 1, Memorandum at 2,11, Ex. A,
Presentence Conf. at 3, Sentencing at 16, Supplemental Memorandum at 1,
Continued Sentencing at 4-5).
Argument
A. The sentencing court procedurallv erred when it relied on the
factual findings in the presentence report to calculate Petitioners’
drug quantity. Where the government has the burden of proof on
an issue, and Petitioner contests the issue, the government must
submit evidence at the sentencing hearing on the contested factual
findings. The court may not rely on the PSR to support its findings.
In the present case, the government declined to submit any proof
of the drug quantity set out in the PSR. Therefore, the court erred
in reiving on the PSR in calculating drug quantity.
The government must prove drug quantity by a preponderance of the
evidence. United States v. Sklar, 920 F.2d 107,112-13 (ist Cir. 1990), United

27

States v. Sepulveda, 15 F.3d at 1198, United States v. Marks. 365 F.3d 101,
105 (1st Cir. 2004). If a defendant objects to any of the factual allegations
contained in the PSR on an issue on which the government has the burden
of proof, the government must present evidence at the sentencing hearing
to prove the existence of the disputed facts. Id. at 898. Where the
government does not present any evidence on the disputed facts, the court
may not rely on the facts as stated in the PSR as true. The PSR is not
evidence. United States v. Jenner. 473 F.3d 894, 897 (8th Cir. 2007), United
States v. Lindsey. 827 F.3d 723, 738 (8th Cir. 2016), Fed.R.Crim.P. Rule 32
(i)(3)(A) (the court may accept only undisputed portions of the PSR as
findings of fact). In the present case, the government declined to present
any evidence in support of probation’s drug quantity calculation and in fact
objected to probation’s drug quantity. Therefore, the district court erred
when it relied on facts in the PSR to support its drug quantity finding and
the case must be remanded for resentencing. United States v. Jenner. 473
F.3d at 897.
In accordance with their plea agreement, the government
recommended a base offense level of 28. This base offense level was based
on the quantity of drugs for which Petitioner was responsible. (Plea
Agreement at 2, para.3(A)). Probation found that Petitioner’s base offense

28

level was 30. Probation increased the drug weight attributable to Petitioner
by converting three sums of money into drugs, $5, 720 found in a safe at
Petitioner’s residence, a $5,000 and a $3,300 withdrawal from Petitioner’s
bank account. (RPSR at 7, para. 11).
Petitioner challenged both probation’s conclusion that the cash and
the bank withdrawals were connected to a drug transaction and probation’s
factual statement that Petitioner’s $1,200 a month disability payment was
his only legitimate income. (Memorandum at 1-2, Supplemental
Memorandum at 1). Petitioner offered documentary proof that the April
24, 2018, bank withdrawal was to repay his cash bail, and that in addition
to his $1,200 income, Petitioner had received a $250,000 pay out from his
daughter’s life insurance and military benefits. (Supplemental
Memorandum, Ex A at 1).
At the sentencing hearing, the government declined to present any
evidence on the conversion of the cash and the withdrawals to drug
quantity or indeed any evidence on drug quantity at all. (Addendum to the
RPSR at 1, Gov’ts Obj. 1, Sentencing Hearing at 15). The government
continued to recommend a base offense level of 28 and a sentence at the
low end of the guideline range. (Sentencing at 15, 23). Nonetheless, the
district court based its drug quantity finding on facts set out in the

29

presentence report. The court adopted the PSR’s conversion of the cash in
the safe and the bank withdrawals to drugs. The court adopted the finding
that the withdrawals happened on two days before and on the day of a
subsequent drug transaction. The court relied on the PSR’s factual
statement that $1,200 was Petitioner’s only source of income. (RPSR at 5,
7, Addendum to PSR at 1, Def s Obj 1, Response). Thus, the court entirely
supported its drug quantity calculation with facts from PSR. This was
reversible error.
The PSR is not evidence. United States v. Jenner, 473 F.3d 894, 897
(8th Cir. 2007), United States v. Lindsey. 827 F.3d 723, 738 (8th Cir. 2016)
cert, denied 137 S.Ct. 413,196 L.Ed.2d 321 (2016). The court can only rely
on uncontested portions of the PSR. Once Petitioner contests the facts and
conclusions in the PSR, on an issue on which the government has the
burden of proof, the government must offer evidence, at the evidentiary
hearing, to prove drug quantity by a preponderance of the evidence. The
court is not entitled to rely on the PSR to sustain the government’s burden
of proof. Id., United States v. Ross. 502 F.3d 521 (6th Cir. 2007). The PSR is
compiled by probation, probation is an arm of the court. United States v.
Saxena. 229 F.3d 1 (ist Cir. 2000), United States v. Caribe Garcia. 125
F.Supp.2d, 19, 20-21 (D.P.R.2000). An arm of the court cannot meet the

30

government’s burden of proof on such an essential element of a defendant’s
sentence. To hold otherwise would make the government’s duty to prove
drug quantity by a preponderance meaningless. Sepulveda. 15 F.3d at 1198,
(The district court must “sedulously enforce quantum-of-proof rule” and
hold the government to its duty to prove drug quantity), United States v.
Valencia-Lucena. 988 F.2d 228, 232-33(1^ Cir. 1993) (At the evidentiary
hearing the government must prove drug quantity by a preponderance,
because drug quantity “is a critical factor in determining length of
imprisonment”).
Thus, the court committed reversible error when it did not require the
government to present evidence at the sentencing hearing to prove the
existence of the disputed facts in the PSR. It is the government’s burden to
prove drug quantity by a preponderance of the evidence, and because the
disputed facts were not proven, the court committed reversible error when
it relied on the PSR for its drug quantity finding. United States v. Jenner,
473 F.3d 898.
B. The district court committed procedural error when it failed to
make required finding of facts on a disputed issue. In the present
case. Petitioner sufficiently controverted the facts supporting the
PSR’s drug quantity calculation. This triggered the court’s duty to
make the required finding of facts as to the disputed issue. This
the court did not do. and the case must be remanded for
resentencing.

31

Whenever a defendant objects to statements in the PSR and submits
countervailing proof, the court is obligated to rule on the controverted
issue, making specific findings of facts. Fed R.Crim.P. 32(i)(3)(B), (for any
disputed portion of the presentence report the court must rule on the
dispute or determine that a ruling is unnecessary), United States v. Cox. 851
F.3d 113,121 (1st Cir.2017) (The district court is obligated to resolve any
genuine and material dispute on the merits).
In the present case, the court adopted the facts in the presentence
report without making the required finding of fact on the disputed issues.
The court based its drug quantity finding (conversion of the cash and
withdrawals to drugs) on the following facts; (1) $1200 was Petitioner’s
only source of income, (2) Petitioner lent money to relatives, (3) Petitioner
purchased items, including a house, truck and snowmobiles, on this limited
income and (4) the bank withdrawals were near in time to the April 26th
drug transaction. (Sentencing at 17, 32-34).
Petitioner offered evidence which sufficiently controverted the facts
upon which the court based its quantity decision and triggered the court’s
duty to make the required findings of fact. Petitioner submitted
documentary evidence that his house was not purchased by him but held in
a trust of which he was not the trustee. Petitioner also submitted evidence

32

that he had an additional source of income of $250,000, which he received
from proceeds from his daughter’s life insurance and military benefits.
Petitioner also offered documentary evidence that the $5,000 withdrawal
was repayment of his cash bail.
The court never resolved these controverted factual issues. United
States v. Cirilo. 803 F.3d 73, 75 (ist Cir. 2015) (where facts are sufficiently
controverted, court must make factual findings on contested portions of the
presentence report). The court is obligated to resolve contested facts that
are material to sentencing United States v. Gonzalez. 736 F.3d 40, 444(ist
Cir. 20123), Fed.R.Crim.Pro., Rule 32(i)(3)(B). The district court never
made specific findings as to whether Petitioner’s $1,200 monthly disability
payment was his only source of legitimate income. Neither did the court
determine whether the $5,000 bank withdrawal was made to repay
Petitioner’s cash bail in his state case. Most importantly Petitioner offered
evidence that his assets, his house, and his vehicles, where not purchased
with drug money. The court never made specific findings about or ruled on
any of these controverted issues, each of which was important to court’s
drug quantity findings. (Sentencing at 17, 32-34). United State v.
Bruckman. 874 F.2d 57, 64 (1st Cir. 1989) (If sentencing judge fails to make
requisite findings or the findings are ambiguous, the case must be

33

remanded for resentencing), United States v. Sepulveda, 15 F.3d 1161,119899 (ist Cir. 1993) (In the face of timely objection, wholly conclusory findings
cannot be said to command a preponderance of the evidence standard).
At the sentencing hearing and the continued sentencing hearing, the
court merely stated its conclusion without ruling on the disputed facts.
(Sentencing at 17, 32, Continued Sentencing at 7). This is reversible error.
If a sentencing judge fails to make the requisite findings and
determinations or the findings are ambiguous, the case must be remanded
for resentencing. United States v. Wilson, 920 F.2d 1290,1294 (6th Cir.
1990).
C. The district court substantively erred when it determined drug
quantity. The district court is required to find drug quantity bv a
preponderance of the evidence. In the present case, even
assuming, arguendo, that the court could consider the facts set out
in the PSR. the evidence was insufficient to support a finding of
drug quantity bv a preponderance of the evidence. The court had
insufficient evidence to find that the two bank withdrawals
preceding the April 26. 2018 drug transaction could be converted
to drugs.
A sentencing court must find drug quantity by a preponderance of the
evidence. United States v. Sepulveda. 15 F.3d 1161,1198 (1st Cir. 1993)
(Courts must sedulously enforce the quantum of proof rule, for, under the
guidelines, drug quantity has a dramatic leveraging effect), United States v.
Marks. 365 F.3d 101,105 (1st Cir. 2004). The court may choose between

34

plausible estimates of drug quantity but must “err on the side of caution.”
Id., quoting United States v. Sklar. 920 F.2d 107,113 (1st Cir. 1990).
In the present case, the District Court could not find by
preponderance of the evidence that both bank withdrawals were made to
purchase drugs. Petitioner withdrew two amounts in the days preceding
the April 26th drug trip, $5,000 two days before the trip and $3,300 on the
day of the trip. (RPSR at 5, 7, para 6, para. 11). The court converted each
withdrawal, a total of $8,300, to drugs. But the court had no reasonable
basis to conclude that all $8,300 was for the drug trip on April 26th. There
was no evidence in the PSR as to the quantity of drugs purchased during
the April 26, 2018 transaction. It is true that sentencing courts can estimate
the quantity of drugs based on known quantities from other similar
transactions. United States v. Alcalde. 818 F.3d 791 (8th Cir.2016).
O

However, in the present case, the only drug deal about which there was
definitive quantity information was the May 22nd trip. The quantity of
drugs purchased on May 22nd was approximately half the amount the court
attributed to Petitioner for the April 26th trip. ($4,500 v. $8,300) (RPSR at
7, para 11).1 Thus there was no reasoned basis to attribute both bank
withdrawals to the drug purchase. Sepulveda. 15 F.3d at 1199 (drug

35

quantity findings must be “more than a guess” and wholly conclusory
findings cannot command a preponderance of the evidence).
Additionally, Petitioner submitted documentary proof that the
$5,000 withdrawal on April 24, two days before the drug trip on April 26th,
was made to reimburse his niece, Andrea, for paying his bail in the state
case. Petitioner had documentary evidence that $5,000 was the amount of
his state bail. Petitioner also had a receipt showing the bail was paid by his
niece on April 24, the same day Petitioner withdrew the $5,000 to repay
her. (Memorandum, Ex. A, at 2). Therefore, it is impossible to find by
preponderance of the evidence that both the $5,000 and the $3,300
withdrawal were connected to the April 26th drug transaction. Because
“relatively small quantitative differences may produce markedly different
periods of immurement”, (in this case 100 kilograms converted drug weight
produced a 22 month increase in Petitioner’s sentence), it is vital that the
court base their findings on “reliable information” and where uncertainty
reigns, must “err on the side of caution””. Sepulveda. 15 F.3d at 1198,
quoting. United States v. Sklar. 920 F.2d 107,113 (1st Cir.

iqqo).

United

States v. Marks. 365 F.3d 101,105 (ist Cir. 2004) (A district court may

1 Law enforcement recovered 196.9 grams of fentanyl following the
May 22nd trip, which probation opined cost $4,500. (RPSR at 7,
para. 11).
36

choose between plausible estimates of drug quantity but must “err on the
side of caution.”).
Indeed, later at sentencing the District Court appeared to recognize
that it lacked evidentiary support for converting the monies to drug
quantity. Mid-sentencing, the court interrupted the defense counsel to
declare that he was supplementing his findings concerning the conversion
of monies to drug quantity. The District Court stated, “I think it’s all drug
money and that is an additional component of my earlier finding.”
(Sentencing at 32). The District Court opined that because Petitioner’s only
legitimate means of support was his $1,200 a month disability income, all
1

Petitioner’s money, and assets, including his house, his truck, his snow
mobiles were the proceeds of drug trafficking. (Sentencing at 33, 34). The
District Court offered this statement “I think it’s all drug money”, as an
additional basis for the court’s drug quantity findings. United States v.
Gerante, 891 F.2d 364, 369-70 (1st Cir. 1989) (We are warned future cases
may involve the conversion of cars, houses, and other items into ‘quantities
of drugs’ for the purpose of determining a defendant’s drug quantity. We

37

need not address the appropriateness of such speculative and remote
scenarios”).2
A sentencing court’s finding that a specific sum of currency can be
converted to drug quantity is based on reliable evidence connecting a sum
of money (almost exclusively, cash seized at the scene) to drug transactions.
The court’s global statement that all Petitioner’s assets were drug money is
not evidentiary support for converting specific bank withdrawals to drug
quantity. United States v. Rivera Calderon. 578 F.3d 78,100 (ist Cir. 2009)
(quantity finding must have demonstrable record support and be based on
reliable evidence).
Moreover, in this case, Petitioner offered documentary evidence to
rebut the court’s sweeping generalization that all Petitioner’s assets and
monies were drug money. Petitioner offered proof that his $1,200 monthly
income was not his only source of income. Petitioner offered documentary
evidence that he had an additional source of income in the $250,000 he
inherited on the death of his daughter. Petitioner offered bank records
showing the deposit by the insurance company and by the military.
(Supplemental Memorandum, Ex. A at 1, at 69). Furthermore, Petitioner

2 It is true the court did not convert all Petitioner’s assets to drug
quantity, but rather used the statement as a rational basis to convert
specific amounts of money.
38

showed documentary proof that his house was not purchased with drug
money, as the court had opined, but rather was deeded to him through a
special interest trust of which he was not the trustee. (Continued
Sentencing at 5,6, Supplemental Memorandum, Ex. B at 1-4). Thus, the
court’s calculation of drug quantity was not supported by a preponderance
of the evidence. Not only was there was a dearth of evidence to support
converting both bank withdrawals to a drug quantity, but there was also a
significant quantum of evidence to show that withdrawals were for other
purposes and to show that Petitioner’s income was not limited to $1,200
monthly disability payments, nor were all his assets purchased with “drug
money”, factors the court relied on to support its drug quantity finding.
(Sentencing at 17, 32-34).
The District court clearly erred in converting each bank withdrawal to
drugs. It is impossible to look at the evidence as a whole and not come away
with a “strong, unyielding belief’ that a mistake was made. Accordingly,
Petitioners entitled to resentencing.

39

CONCLUSION
For the above reasons, this Court should grant the Petition for a Writ
of Certiorari.
Dated at Portland, Maine this 23rd day of April 2021.
/s/Jane E. Lee
Attorney for Petitioner
Jane Elizabeth Lee
44 Exchange Street
Suite 201
Portland, Maine 04101

40

